   Office of Inspector General
       Audit Report

ACTIONS NEEDED TO ENHANCE CONTROLS
         OVER TRAVEL CARDS

         Department of Transportation

          Report Number: FI-2014-129
        Date Issued: September 18, 2014
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Actions Needed To Enhance                                            Date:    September 18, 2014
           Controls Over Travel Cards
           Department of Transportation
           Report Number FI-2014-129
                                  for
  From:    Louis C. King                                                                  Reply to
                                                                                          Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/Chief Financial Officer
           Federal Aviation Administrator

           In fiscal year 2012, Department of Transportation (DOT) employees spent
           $175 million using Government-issued travel cards. DOT issues travel cards to its
           employees to pay expenses related to Government travel including transportation,
           hotel and meal costs. Cash may be used as a secondary payment method. 1 DOT
           considers use of the cards for anything other than official Government travel to be
           misuse or abuse. 2 In prior audits, 3 we identified instances of DOT employees’
           abuse and misuse of their travel cards, including purchases for personal use,
           excessive cash advances, 4 and late payments.

           The Government Charge Card Abuse Prevention Act of 2012 5 requires the Office
           of Inspector General (OIG) to perform periodic audits or reviews of travel card
           programs. Accordingly, our audit objective was to determine whether DOT’s
           internal controls were properly designed and implemented to prevent and detect
           travel card abuse or misuse.
           1
             DOT cardholders must use their travel cards for all expenses related to Government travel, wherever accepted, unless
           specifically exempted by Federal Travel regulations.
           2
              DOT defines travel card misuse as a cardholder’s unintended use of a travel card for transactions unrelated to
           Government travel. In this report, we refer to travel card purchases as misuse when we were unable to determine the
           cardholder’s actual intent. We identified travel card abuse occurred when the cardholder collected a cash advance using
           the card and a personal identification number.
           3
             Audit of Use of Government Travel Charge Cards, DOT (OIG Report Number FI-2003-049) Aug. 28, 2003; Follow-
           Up Audit on DOT Government Travel Card Delinquencies and Charge-Offs (OIG Report Number SC-2004-067)
           June 29, 2004. OIG reports are available on our Web site: www.oig.dot.gov.
           4
             In general, a cash advance that exceeds the daily meals and incidentals expense (M&IE) rates multiplied by the length
           (in days) of the trip.
           5
             Public Law 112-194 (2012).
                                                                                                                   2


We conducted this audit in accordance with generally accepted Government
auditing standards. As part of our work, we selected 2 samples—a statistical
sample of 400 cash advances from a universe of 48,554 transactions and a sample
of 400 purchases from a universe of 890,132 transactions. These samples allowed
us to project the total amount of cash advances and purchases, taken or made
during fiscal year 2012 that were not related to Government travel. We also tested
for excessive cash advances, and due to inherent high risk, we expanded our
review to include all 218 cash advances taken at casinos during fiscal year 2012.
Exhibit A details our scope and methodology.

RESULTS IN BRIEF
DOT has effective controls to prevent cardholders from making purchases at
businesses that do not provide transportation, lodging or meals and to minimize
delinquent cardholder accounts. However, excessive or unauthorized cash
advances and instances of travel card misuse are going undetected because DOT
lacks robust internal controls to prevent these transactions. Specifically, while
DOT’s Travel Card Policy prohibits such misuse, it does not specifically require
program officials to monitor for excessive cash advances, which increase the risk
that cash advances are used for non-Government travel expenses. Out of the 400
cardholder cash advance transactions we tested, 24 were excessive, and none were
detected by program officials. Program officials also did not detect all
unauthorized cash advances that DOT employees collected while not on
Government travel because they lack an effective process for reviewing
transactions for potential abuse. Program officials have access to an effective
screening tool from the travel card provider; however, they do not use it because
DOT’s Travel Management Policy does not require them to do so. As a result, we
estimate that program officials did not detect that cardholders collected $ 183,000 6
in cash advances unrelated to Government travel during fiscal year 2012. Finally,
DOT also lacks an automated control to help program officials identify non-
Government travel purchases. From our sample of 400 purchases, program
officials did not detect 8 unauthorized purchases. As a result, we estimate that
program officials did not detect that cardholders made purchases worth an
estimated $2.1 million 7 who were not on Government travel during fiscal year
2012.

We are making recommendations to strengthen controls and reduce program costs
in DOT’s travel card program.

6
  We estimate with 90-percent confidence that DOT officials did not detect the cash advances collected by cardholders
not on Government travel totaled $ 183,000 (2.3 percent of the universe). Our 90-percent confidence limits range from
$ 41,000 to $ 324,000 and have a margin of error of +/- 1.8 percent.
7
  We estimate with 90-percent confidence that DOT officials did not detect the purchases made by cardholders not on
Government travel totaled $2.1 million (2.0 percent of the universe). Our 90-percent confidence limits range from
$796,000 to $3.3 million and have a margin of error of +/-1.2 percent.
                                                                                                      3


BACKGROUND
The Office of Management and Budget’s (OMB) Circular A-123, Appendix B,
Improving the Management of Government Charge Card Programs, dated
January 15, 2009, prescribes policies and procedures to agencies regarding how to
maintain internal controls that reduce the risk of fraud, waste, and error in
Government charge card programs. It also requires each agency to develop and
maintain written policies and procedures consistent with the Circular’s
requirements.

All Operating Administrations follow DOT’s Financial Management Travel Card
Management Policy. The policy outlines the use of reports to track delinquencies
and establishes risk management controls and practices, and prescribes
disciplinary action for travel card abuse and misuse. Agency program coordinators
(APC) at each Operating Administration serve as points of contact for cardholders
and are responsible for ensuring proper use of travel cards in accordance with
policy.

DOT used the General Services Administration’s (GSA) SmartPay® Program to
select a travel card provider. 8 JP Morgan Chase, the current provider, issues travel
cards to DOT employees to pay for travel expenses related to Government travel
(airline, hotels, meals, incidentals). During fiscal year 2012, DOT cardholders
made 1.2 million purchases using their travel cards. These cardholders are
responsible for all charges on their travel cards and for remitting payments on
time. JP Morgan Chase provides reports which assist APCs in identifying travel
card delinquencies, unauthorized cash advances and purchases.

PROGRAM OFFICIALS DID NOT DETECT ALL TRAVEL CARD
ABUSE AND MISUSE
DOT has implemented effective controls to block purchases at merchants that do
not provide travel services 9 and to ensure delinquent cardholder accounts are held
to a minimum. However, DOT lacks a robust system of internal controls to detect
instances of travel card abuse and misuse, such as excessive cash advances, cash
advances taken while not on government travel, and purchase misuse.

Program Officials Did Not Detect Excessive Cash Advances
Program officials did not detect excessive cash advances obtained by Agency
cardholders. As a general rule, DOT’s Travel Card Policy limits cash advances for
a single trip to the total amount needed for meals and incidental expenses

8
  The GSA SmartPay® program provides charge cards to U.S. Government agencies/departments through master
contracts that are negotiated with major national banks.
9
  Transportation, Lodging, and Meals.
                                                                                                  4


(M&IE). 10 Also, DOT policy requires travelers to use their cards for all expenses
related to official travel wherever accepted, unless otherwise exempted. However,
the policy does not require program officials to review travel claims for excessive
cardholder cash advances. We found that 24 of 400 tested cardholder cash advance
transactions were excessive. For example:

• A Federal Aviation Administration (FAA) cardholder traveled to Houston,
  Texas, for 3 days and withdrew a $301 cash advance on the last day of the trip
  at an automated teller machine located 40 miles from his residence. This
  advance exceeded the maximum M&IE allowance by $123. In addition, the
  authorized M&IE allowance for the last travel day was only $53.

• Another FAA cardholder traveled to Atlanta, GA, for 4 days and withdrew a
  $403 cash advance, which exceeded the maximum M&IE allowance by $151.
  In addition, the traveler should have considered the widespread acceptance of
  the card at restaurants before collecting this advance amount. He used the card
  to purchase $227 of meals during this trip which reduced his actual need for
  cash to no more than $25 (the maximum MI&E allowance of $252 less the
  amount of meals purchased of $227 is $25).

Excessive cash advances reduce the amount of rebates DOT receives from the
credit card vendor for purchases because cardholders are using cash rather than
their Government credit cards for purchases. Also, the lack of controls for
detecting excessive cash advances also increases the risk that cash advances are
used for expenses unrelated to Government travel.

DOT Officials Did Not Detect All Cash Advances Taken While Not On
Government Travel
Program officials did not detect all cash advances that DOT employees obtained
when not on Government travel, 11 which is prohibited by DOT’s Travel Card
Policy. DOT had more than 48,000 cash advance transactions during fiscal
year 2012. We estimate that cardholders collected $ 183,000 in cash advances
unrelated to Government travel that were not detected by program officials. Of the
400 cash advances 12 that we sampled, program officials did not detect 6 advances
obtained by employees who were not on Government travel.




10
   Cardholders should use limited travel card cash withdrawals as a secondary form of payment.
11
   Cardholders are allowed to collect advances up to three days prior to Government travel.
12
   Nine of 400 Cash Advances we sampled were made by DOT employees not on Government travel. Program
   Officials identified three of the nine.
                                                                                                                     5


FAA and FRA Program Officials Did Not Use an Effective Exception
Report To Help Detect Potential Cash Advance Abuse or Misuse
One reason that prohibited cash advances went undetected is that FAA and Federal
Railroad Administration (FRA) program officials lack an effective process for
reviewing transactions for potential abuse. Although JP Morgan provided program
officials with an effective exception report (VISA Intellilink) to help detect
potential cash advance abuse or misuse, they do not use it because DOT’s Travel
Management Policy does not require them to do so. Instead, they reviewed
transactions from a monthly account transaction report 13 and compared the
transaction dates to cardholder travel dates indicated in the GovTrip 14 system. This
manual process is both labor intensive and ineffective.

We tested a random sample of 400 FAA cardholder cash advance transactions
from the VISA Intellilink report and determined 83 cash advances were collected
by cardholders who were not on Government travel. Using FAA’s manual process,
officials only identified 20 of the 83 transactions. Examples from the
63 transactions missed by FAA include the following:

• Between October 2011 and June 2012, an FAA cardholder collected seven
  cash advances totaling $719 while not on Government travel. On one occasion,
  this employee obtained a $104 cash advance on a race day at an Alabama
  Superspeedway.

• Between February and August 2012, another FAA cardholder collected five
  cash advances totaling over $1,400 while not on Government travel. 15

We also reviewed all 17 FRA cash advance transactions in the fiscal year 2012
report and found 12 were collected by cardholders that were not on Government
travel. FRA APCs did not detect these 12 unauthorized cash advances.

FAA and OIG Program Officials Did Not Detect Cash Advances Taken at
Casinos While Not on Government Travel
While reviewing cash advance transactions, we identified cash advances collected
at casinos. While DOT’s Travel Card Policy does not preclude cardholders from
taking cash advances at casinos, this presents another opportunity for abuse to
occur. As a result, we expanded our review to test all cash advances taken at
casinos. We found 27 of 218 cash advances taken at casinos were made by
cardholders not on Government travel. Program officials did not detect 17 of these
advances—15 by FAA employees and 2 by a former OIG employee. Several of

13
   FAA states that it compares 100 percent of its transactions to the monthly account transaction report; FRA states it
   samples transactions.
14
   GovTrip is a Web based travel claims service operated under contract with Northrop Grumman Mission Systems.
15
   The cash advances for these two examples were repaid by the employees.
                                                                                                           6


these cardholders collected multiple unauthorized cash advances. For example
program officials did not identify the following travel card abuses:

• An FAA employee who was not on Government travel visited a casino in
  Shawnee, OK, and collected three cash advances totaling $492 from his
  Government-issued travel card.

• A former OIG employee collected two cash advances totaling $488, more than
  2 years after separating from the Agency. DOT’s Financial Management
  Travel Card Management Policy requires that travel card accounts be closed
  when an employee leaves the department. 16

After communicating this finding, OIG management implemented additional
measures to close travel card accounts for employees by their separation date, and
it now reviews reports of cardholders accounts on a monthly basis to ensure only
current employees have accounts.

Program Monitoring Did Not Detect all Instances of Purchase Misuse
Program officials did not identify all instances of purchase misuse. While DOT
has effective internal controls to prevent cardholders from making purchases at
non-travel related businesses, it lacks an automated control to help program
officials identify when cardholders are making purchases while not on
Government travel, which is prohibited by DOT’s Travel Card Policy. Eight of the
400 fiscal year 2012 cardholder purchases we tested were made by employees who
were not on Government travel and were not detected by program officials, which
we estimate totaled $2.1 million. For example:

• A Federal Motor Carrier Safety Administration employee made a $550
  purchase at a recreational vehicle resort in Tampa, FL.

• An FAA employee made a $97 supermarket purchase at a store located
  18 miles from her residence.

Because DOT lacks an automated control, program officials must manually
compare cardholder purchases to cardholder reimbursement claims to identify
unauthorized purchases. This labor intensive process is both costly and ineffective.
To illustrate, FAA spent $684,000 17 to review the propriety of almost 1,014,000
travel card transactions during fiscal year 2012.




16
   These cash advances were repaid by the FAA and former OIG employees. The former OIG employee’s travel card
account has been closed.
17
   The amount spent by FAA is an OIG calculation of FAA data.
                                                                                 7


CONCLUSION
Travel cards improve cash management and reduce administrative workloads.
While DOT has successfully implemented controls to prevent cardholders from
making purchases at businesses that do not provide travel-related services, cash
advance abuse and purchase card misuse still go undetected. Strong internal
controls must be in place to protect this high volume of transactions from fraud,
waste, and abuse. Until DOT takes the necessary actions to further strengthen
controls, it will be unable to more effectively detect travel card misuse.

RECOMMENDATIONS
We recommend that the Assistant Secretary for Budget and Programs/Chief
Financial Officer:

1. Develop and implement controls to detect employees obtaining excessive cash
   advances.

2. Provide program officials with quarterly Intellilink reports to help identify
   cardholder cash advances taken while not on Government travel and develop
   other cost-beneficial methods to detect unauthorized cash advances.

3. Develop and implement automated controls to detect unauthorized cash
   advances and purchases.

We recommend that the FAA’s Assistant Administrator for Finance and
Management:

4. Work with the Department to implement an automated solution, which
   reduces the costs associated with the labor-intensive process of comparing
   cardholder travel card activity to travel claims.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided the Office of the Secretary with our draft report on July 29, 2014,
and received written comments on August 19, 2014. The complete response is
included as an appendix to this report. In addition, we contacted the Office of the
Secretary to obtain further clarification on the Department’s response. Except for
recommendation 2, the Department agreed to implement all of our
recommendations as stated. For recommendation 2, the Department will
implement as stated only for FAA. For other Operating Administrations, the
Department indicated that it has put procedures in place to review all cash
advances to ensure they are not excessive and taken only while on official travel.
                                                                                  8


We consider the Department’s plan to review all cash advances for the other
Operating Administrations to be practical and an acceptable alternative to using
the Intellilink report. Accordingly, we consider all recommendations resolved but
open pending completion.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407 or George Banks, Program Director, at
(410) 962-1729.

                                         #

cc:   FAA Assistant Administrator for Finance and Management
      DOT Audit Liaison, M-1
      FAA Audit Liaison, AAE-100
                                                                                  9


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit between November 2012 and July 2014 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our audit objective was to determine whether DOT’s internal controls were
properly designed and implemented to prevent and detect travel card abuse or
misuse. We interviewed the National Program Coordinator and APCs concerning
departmental controls for preventing and detecting travel card misuse and abuse.
We asked questions about policies and procedures designed to reduce the risk of
abuse in the travel card program.

We tested the effectiveness of DOT’s controls by reviewing travel card
transactions made between October 1, 2011 and September 30, 2012. Specifically,
we determined whether DOT (1) prevented employees from making purchases at
merchants that do not provide transportation services, lodging or food, (2) detected
and minimized delinquent cardholder accounts, (3) detected excessive cash
advances, (4) detected unauthorized cash advances, including using a
commercially available software program designed to identify potential cash
advance abuse, and (5) detected unauthorized purchases.

We also reviewed the completeness of the DOT’s electronic control to prevent
employees from making purchases at vendors that do not provide food, lodging or
transportation. Also, we reviewed the effectiveness of DOT’s actions to reduce
delinquent accounts.

Our statistical sample testing of cash advances and purchases was based upon files
received from JP Morgan Chase, the issuer of the travel cards during our sample
period.

To conduct our work, we compared the 400 cash advances received by the
employee during a Government trip to the total authorized per diem amounts in
the GovTrip to identify excessive employee cash advances. We also compared the
transactions in the fiscal year 2012 travel card transaction file to the employee’s
paper travel voucher or electronic travel voucher (GovTrip) to identify employees
collecting cash advances and making purchases while not on Government travel.

To test for cash advance misuse and abuse, we restricted the file to include only
manual and automated cash advances collected by cardholders in fiscal year 2012


Exhibit A. Scope and Methodology
                                                                                  10


resulting in a universe file of 48,554 transactions that totaled $7.9 million. We
selected a simple random sample of 400 transactions that totaled $64 thousand to
project the amount of cash advances collected by employees that were unrelated to
Government travel. In addition, we tested a random sample of 400 cash advance
transactions out of 2,758 from the FAA Intellilink report and all cash advance
transactions from the FRA Intellilink report to determine the number of
cardholders who were not on Government travel. We also tested all cash advances
which were taken at casinos by cardholders to determine the number of
cardholders who were not on Government travel.

To test for purchase abuse, we excluded all payments, write-offs, or refunds. We
also excluded all airline related charges and fees and travel agent charges and fees.
The resulting file included a universe of 890,132 transactions that totaled
$104 million. We selected stratified probability proportional to size sample with
replacement where the size was the transaction amount of 400 transactions that
totaled $506 thousand to project the amount of employee purchases unrelated to
Government travel.




Exhibit A. Scope and Methodology
                                                           11



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

George Banks                            Program Director

Mark Rielly                             Project Manager

Brian Frist                             Senior Analyst

Gary Fishbein                           Senior Auditor

Scott Williams                          Auditor

Megha Joshipura                         Statistician

Andrea Nossaman                         Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                           12



APPENDIX. AGENCY COMMENTS



U.S. Department of                                                             1200 New Jersey Avenue,
                                                                               SE Washington, DC 20590
Transportation
Office of the Secretary
of Transportation


                                            August 19, 2014


    Subject:       INFORMATION: Management Comments to
                   OIG Report on DOT's Travel Card Program

    From:
                   Chief Financial Officer
                      and Assistant Secretary for Budget and Programs

    To:            Louis C. King
                   Assistant Inspector General for Financial
                      and Information Technology Audits

   The Department of Transportation (DOT) issues travel cards to employees as a convenience
   for charging official travel related expenses - including transportation, hotel, and meal costs.
   Instances of travel card use while not on official travel are against policy. When employees
   receive their monthly travel card bill, expenses are the personal financial responsibility of the
   individual cardholder. Fortunately, DOT employees have a good record of fully paying their
   charges and remitting these payments timely. As noted by the Office of Inspector General
   (OIG) in their report, DOT cardholders made over 1.2 million transactions in FY 2012. DOT
   monitoring of these transactions assisted in achieving a delinquency rate of only 0.38 percent
   for FY 2012. This is significantly below the Office of Management and Budget's target
   delinquency rate of 2.00 percent. In addition to oversight of employee travel card payments,
   the Department has implemented a series of internal controls that reduce the risk of travel
   card use for other than official travel.

        • DOT Agency/Organization Program Coordinators (A/OPCs), using existing guidance
          and procedures, actively monitor the travel activity and credit limits of all cardholders
          to ensure that cardholder credit and cash limits are restricted during periods of
          inactivity and that cardholder credit balances are paid on time.
        • All non-FAA cash withdrawals are now being reviewed by the DOT A/OPCs on a
          monthly basis to ensure that they are not excessive and only taken while on official
          travel.
        • DOT uses Merchant Category Code restrictions to prevent cardholders from making
          purchases at businesses that do not provide transportation, lodging or meals. Further,
          we intend to examine how expanding the use of these code restrictions might better
          ensure compliance with our travel card policies.
Appendix. Agency Comments
                                                                                             13



    • The Department is committed to using technology to the maximum extent possible to
      reduce risk in this program. In fact, DOT is in the process of procuring a new e­
      Travel system which will facilitate the automation of some of the labor intensive
      processes required to monitor the travel card program and strengthen internal
      controls. The system will be rolled out across all Operating Administrations between
      February and August of 2015.

Based upon our review of the draft report, we agree to implement each of the OIG
recommendations. Recommendations 1 and 2 will be implemented by December 31, 2014.
Recommendations 3 and 4 will be implemented by August 31, 2015.

We appreciate this opportunity to offer an additional perspective on the OIG draft report.
Our point-of-contact regarding this program is Arnie Linares, DOT's National Travel Card
Program Coordinator. He may be reached at (202) 366-0520 with any questions or if the
OIG would like to obtain additional details about these comments.




  Appendix. Agency Comments
